         USAID
          FROM THE AMERICAN PEOPLE




The Honorable John F. Sopko                                   MAY 13 201't
Special Inspector General
   for Afghanistan Reconstruction
1550 Crystal Drive, 9th Floor
Arlington, Virginia 22202


Dear Mr. Sopko:

       Thank you for your letter of May 5, 2014, regarding concerns raised by the
Washington Post article entitled "Big,Budgets, Little Oversight in War Zones."
The article, and your letter, raised particular concerns regarding a contractor's
practice of prohibiting employees from informing government officials of critical
information.

       I assure you that USAID takes very seriously its role as a steward of
taxpayer funds. I write to highlight some of the steps USAID has taken, and will
be taking, to remove impediments to government oversight such as those described
in the article.

       As you may know, the Federal Acquisition Regulation (FAR) Part 3.9
prohibits federal contractors from retaliating against employees who blow the
whistle on violations of law. USAID administers its contracts in accordance with
the FAR, including this provision. Recently, efforts have been underway across
the federal government to strengthen this prohibition by establishing a pilot
program to expand whistleblower protections pursuant to 41 U.S.C. §4712. Last
year, an interim rule was issued to include the clause at FAR 52.203-17 in
contracts, which requires contractors to inform their employees of whistle blower
rights. USAID notified its Contracting Officers of the interim rule and requested
that they incorporate the clause into contracts.

      To reinforce the Agency's implementation of the pilot program, I have asked
USAID's Senior Procurement Executive to issue a bulletin reminding our
Contracting Officers that the pilot program clause must be included in all contracts

U.S. Agency for International Development
1300 Pennsylvania Avenue, MN
Washington, DC 20523
www.usaid.gov
                                    -2-


over the simplified acquisition threshold issued between July 1, 2013 and January
1, 2017.

       With regard to USAID's grants and cooperative agreements, separate efforts
are underway to strengthen the whistleblower protections provided to employees of
assistance recipients and sub-recipients. OMB's recently issued "Uniform
Administrative Requirements, Cost Principles, and Audit Requirements for Federal
Awards" includes language at 2 CFR 200.300, that encompasses whistleblower
protections. USAID is in the rulemaking process to issue Agency regulations
implementing this guidance. The Agency will introduce a provision in our
assistance agreements implementing the enhanced whistleblower protections
afforded to assistance recipient employees as a matter of law. I have asked
USAID's Senior Procurement Executive to notify all assistance recipients of their
statutory obligations to notify and observe the legal protections afforded their
employees. Additionally, our Agreement Officers will be amending all Agency
assistance agreements, not just those in Afghanistan, to incorporate a provision
requiring recipient organizations to comply with U.S. statutory and policy
whistleblower protections.

      We believe that all of the above provisions provide important protections as
conditions ofUSAID's awards. These provisions specifically prohibit contractors,
subcontractors, recipients or subrecipients from attempting to abridge by
agreement or condition of employment any of their employees' statutory
protections for whistleblowing. Such prohibitions are vital to effective government
oversight and accountable program implementation.

        Since 2011, USAID staff have highlighted the importance of partners
disclosing information to the government as a primary topic in our Compliance
Workshop, which we created internally and have delivered to more than 2,000
individuals. These·participants have included Agency and implementing partner
staff, operating not only in Afghanistan, but around the world. We intend to
continue to emphasize this message in our communications to Agency and partner
staff alike. The message from the Agency's Senior Procurement Executive
described above will present an unequivocal statement ofUSAID's commitment to
whistleblower protections, and we intend to underscore the message in future
meetings with partner advocacy groups.

      USAID shares your commitment to preventing waste, fraud, and abuse of
government funds, and is confident that the great majority of its implementing
partners do, as well. We look forward to continuously improving the protections
                                   -3-



afforded to whistleblowers under our programs, and the effective government
oversight they permit.




Attachments:
      1:    USAID Procurement Executive Bulletin 2014-02
      2:    Senior Procurement Executive Letter to USAID Contractors and
      Recipients, "Pilot Program for Enhancement of Contractor Employee
      Whistleblower Protections"
         USAID
         FROM THE AMERICAN PEOPLE



USAID PROCUREMENT EXECUTIVE

PROCUREMENT EXECUTIVE'S BULLETIN NO. 2014-02
SUBJECT: PILOT PROGRAM FOR ENHANCEMENT OF EMPLOYEE
WHISTLEBLOWER PROTECTIONS


l. Scope: This Bulletin applies to all USAID A&A stafT.

2. Purpose: The purpose of the PEB is to remind A&A staff that the Whistleblower Protection
requirements are applicable to all USAID contractors, recipients, subcontractors, and
subrecipients.

3. Responsibilities and Requirements:
a. Acquisition: USAID COs are responsible for incorporating the required FAR Clause 52.203-
17 in all USAID solicitations and contracts that exceed the simplified acquisition threshold, as
announced in FAC-Note 2005-70 (See, FAR 3.908 Pilot program for enhancement of
contractor employee whistleblower protections.) FAR 3.907, which addresses whistleblower
protections under the American Recovery and Reinvestment Act of2009, is unaffected by this
rule. Therefore, COs must also use the clause at 52.203-15, in all solicitations and contracts
funded in whole or in part with Recovery Act funds.

b. Assistance: USA ID AOs must remind recipients about their responsibility to inform their
employees and sub-recipients, in writing, of their Whistleblower Protection rights as
communicated by the Director, Office of Acquisition and Assistance, Bureau for Management,
in his letter dated May 9, 2014.

4. Background: SAID takes whistleblower protection rights very seriously. Congress has
enacted many whistleblower protection statutes to encourage employees to report fraud, waste,
and abuse. The National Defense Authorization Act (NOAA) for Fiscal Year (FY) 2013 (Pub. L.
112-239, enacted January 2, 2013) mandates a pilot program titled "Pilot Program for
Enhancement of Contractor Employee Whistleblower Protections." It is codified at 41 U.S.C.
§4712 and applies to all employees working for contractors, subcontractors, recipients and
subrecipients on federal awards.

5. Discussion:
a. Acquisition: This PEB serves to remind COs to include the required FAR clause in current
and future awards and become familiar with the Pilot Program for Enhancement of
Contractor Employee Whistleblower Protections, published in FAC Note 2005-70. This
interim rule amended the FAR to implement a four-year pilot program to enhance the existing
whistleblower protections for contractor employees at FAR subpart 3.9. For more details, see
http://www.gpo.gov/fdsys/pkg/FR-2013-09-30/html/2013-23703.htm

U.S Agency for lntemabonal De\181opment
1300 Pennsylvania Avenue, MN
Washngton, 0C 20523
www usaid gov
b. Assistance: This PEB also serves to inform AOs that these whistleblower protection rights
apply to assistance awards too, as communicated to USAID recipients in a letter dated May 9,
2014, from the Director. Office of Acquisition and Assistance, Bureau for Management.
M/OAA/P is in the process of drafting a Standard Provision entitled "Pilot Program for
Enhancement of Contractor Employee Whistleblower Protections" which AOs will be required
to incorporate in all assistance awards (grants and cooperative agreements) made on or after July
I, 2013. All assistance awards made through January I, 2017, will be required to include this
provision.

6. Inquiries. Questions may be addressed to Marcelle Wijesinghe, M/OAA/P at 202-567-4717,
or e-mail mwi jesinghe@usaid.gov.

7. Effective Date. This Bulletin is effective immediately and shall remain in effect until
cancelled by the Procurement Executive.

                                                               r~ ,
                                                                      .         !   ,




Date '   /
~USAID
~         FROM THE AMERICAN PEOPLE




Date:               May 9, 2014

TO:                 USAID Contractors and Recipients

SUBJECT: Pilot Program for Enhancement of Contractor Employee Whistleblower Protections

I am writing to ensure that you are aware of the whistleblower protections mandated by 41
U.S.C. §4712, which apply to all employees working for contractors, subcontractors, recipients
and subrecipients on federal awards. The statute mandates a pilot program titled "Pilot Program
for Enhancement of Contractor Employee Whistleblower Protections." This program requires all
contractors, subcontractors, recipients, and subrecipients under USAID awards to:

     1. Inform their employees working on any Federal award that they are subject to the
        whistleblower rights and remedies of the pilot program;
     2. Inform their employees in writing of employee whistleblower protections under 41
        U.S.C. §4712 in the predominant native language of the workforce; and
     3. Recipients must include such requirements in any agreement made with a subrecipient.
     4. Contractor must include such requirements in any agreement made with a subcontractor.

 The statute (41 U.S.C. §4712) states than an "employee of a contractor, subcontractor, grantee
 [or subgrantee] may not be discharged, demoted, or otherwise discriminated against as a reprisal
 for "whistleblowing." In addition, whistleblower protections cannot be waived by any
 agreement, policy, form or condition of employment.

 Whistleblowing is defined as making a disclosure "that the employee reasonably believes" is
 evidence of any of the following:

      •    Gross mismanagement of a Federal contract or grant;
      •    A gross waste of Federal funds;
      •    An abuse of authority relating to a Federal contract or grant;
      •    A substantial and specific danger to public health or safety: or,
      •    A violation of law, rule, or regulation related to a Federal contract or grant (including the
           competition for, or negotiation of, a contract or grant).

 To qualify under the statute, the employee's di closure must be made to:




 U S Agency for lntemallonal Dellelopment
 1300 Pennsylvania All8flue, WI/
 Washington. DC 20523
 www.usa1d .gov
   •   A Member of Congress, or a representative of a Congressional Committee;
   •   An Inspector General;
   •   The Government Accountability Office;
   •   A federal employee responsible for contract or grant oversight or management at the
       relevant agency;
   •   A court or grand jury; or,
   •   A management official or other employee of the contractor, subcontractor, grantee, or
       subgrantee who has the responsibility to investigate, discover or address misconduct.

The requirement to comply with, and inform all employees of, the "Pilot Program for
Enhancement of Contractor Employee Whistlebtower Protections" is effective for all contracts,
subcontracts, assistance awards and subawards issued beginning July 1, 2013 through January
I, 2017. Contracting Officers and Agreement Officers will be modifying/amending awards as
necessary to incorporate the relevant clauses and provisions into awards made during this period .
                                               .            ~
                                             Sincerely, '


                                                           an ani
                                             Director, Office of Acquisition & Assistance
                                             Bureau for Management
SIGAR-14-56-SP
SIGAR-14-56-SP
